U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 9, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Trump v. San Jose, No. 20-561
Dear Mr. Harris:
The jurisdictional statement in the above-captioned case was filed on October 29, 2020.
The appellees’ motion to affirm or dismiss is due on November 30, 2020. The government
respectfully submits this letter pursuant to Rule 30.4 of the Rules of this Court. Although the
government has no reason to believe that appellees will seek an extension of time to file their
motion to affirm or dismiss, the government submits this letter in an abundance of caution to
inform the Clerk in advance that it would oppose any request for an extension.
The district court entered a judgment barring the Secretary of Commerce from including
information requested by the President about the immigration status of individuals in a report
concerning the enumeration for purposes of apportionment of Representatives; the report has a
statutory deadline of December 31, 2020. See J.S. App. 130a-131a; 13 U.S.C. 141(b). The
government has requested that the Court hold the jurisdictional statement in this case pending its
disposition of Trump v. New York, No. 20-366 (filed Sept. 22, 2020), and then dispose of it as
appropriate in light of the Court’s decision in that case. New York involves the same questions
presented as does the jurisdictional statement in this case, and, recognizing the need for resolution
of those questions before the December 31 statutory deadline, this Court expedited its
consideration of New York and set oral argument for November 30.
An extension of time to file the motion to affirm or dismiss could hinder this Court’s ability
to act on the jurisdictional statement in this case after it decides New York and before the December
31 statutory deadline. Accordingly, the government would oppose any such extension request.

Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0561
TRUMP, DONALD J., PRESIDENT OF THE UNITED
STATES, ET AL.
CITY OF SAN JOSE, CALIFORNIA, ET AL.

TAMARA IRENE DEVITT
HAYNES AND BOONE, LLP
600 QNTON BOULEVARD
SUITE 700
COSTA MESA, CA 92626
949-202-3000
TAMARA.DEVITT@HAYNESBOONE.COM
JENNIFER G. ALTMAN
PILLSBURY WINTHROP SHAW PITTMAN LLP
600 BRICKELL AVENUE
SUITE 3100
MIAMI, FL 33131
786-913-4900
JENNIFER.ALTMAN@PILLSBURYLAW.COM
MARIA BEE
OAKLAND CITY ATTORNEY'S OFFICE
ONE FRANK H. OGAWA PLAZA
6TH FL.
OAKLAND, CA 94612-1999
510-238-3814
MBEE@OAKLANDCITYATTORNEY.ORG
RICARD P. BRESS
LATHAM AND WATKINS LLP
555 ELEVENTH STREET, N.W.
SUITE 1000
WASHINGTON, DC 20004-1304
202-637-2200
RICK.BRESS@LW.COM

DUSTIN JAMES CHASE-WOODS
PILLSBURY WINTHROP SHAW PITTMAN LLP
FOUR EMBARCADERO CENTER
22ND FLOOR
SAN FRANCISCO,, CA 94111
415-983-1213
DUSTIN
DUSTIN.CHASEWOODS@PILLSBURYLAW.CO
M
RICHARD W. CLARY
CRAVATH, SWAINE & MOORE LLP
825 EIGHTH AVENUE
NEW YORK, NY 10019
212-474-1000
SUE ANN SALMON EVANS
115 PINE AVENUE
SUITE 500
LONG BEACH, CA 90803
562-366-8500
SEVANS@DWKESQ.COM
VALERIE LOUISE FLORES
CITY ATTORNEY'S OFFICE FOR THE CITY OF
LOS ANGELSE
200 NORTH MAIN STREET
7TH FLOOR, MS 140
LOS ANGELES, CA 90012
213-978-8149
VALERIE.FLORES@LACITY.ORG
213-978-8222(Fax)
BLAINE I. GREEN
PILLSBURY WINTHROP LLP
POST OFFICE BOX 2824
SAN FRANCISCO, CA 94126
415-983-1476
BLAINE.GREEN@PILLSBURYLAW.COM

DAVID ILAN HOLTZMAN
HOLLAND & KNIGHT LLP
50 CALIFORNIA STREET
28TH FLOOR
SAN FRANCISCO, CA 9411
415-743-6900
DAVID.HOLTZMAN@HKLAW.COM
LAWRENCE JOHN JOSEPH
LAW OFFICE OF LAWRENCE J. JOSEPH
1250 CONNECTICUT AVENUE, NW
SUITE 200
WASHINGTON, DC 22102
202-669-5135
LJOSEPH@LARRYJOSEPH.COM
SADIK HARRY JUSENY
LATHAM & WATKINS LLP
505 MONTGOMERY STREET
SUITE 2000
SAN FRANCISCO,, CA 94111
415-391-0600
SADIK.HUSENY@LW.COM
MONICA J. KILAITA
LONG BEACH CITY ATTORNEY'S OFFICE
411 W. OCEAN BLVD.
9TH FLOOR
LONG BEACH, CA 90802
562-570-2215
MONICA.KILAITA@LONGBEACH.GOV
DOUGLAS N. LETTER
U.S. HOUSE OF REPRESENTATIVES
219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 20515-6532
202-225-9700
DOUGLAS.LETTER@MAIL.HOUSE.GOV

MICHAEL JOHN PISKO
PILLSBURY WINTHROP SHAW PITTMAN LLP
31 WEST 52ND STREET
NEW YORK, NY 10019
AJAY P. SAINI
LAWYERS' COMMITTEE FOR CIVIL RIGHTS
UNDER LAW
1500 K STREET, NW
SUITE 900
WASHINGTON, DC 20005
202-662-8304
ASAINI@LAWYERSCOMMITTEE.ORG
DORIAN LAWRENCE SPENCE
LAWYERS COMMITTEE FOR CIVIL RIGHTS
UNDER LAW
1401 NEW YORK AVENUE NW
SUITE 400
WASHINGTON, DC 20005
202-662-8324
DSPENCE@LAWYERSCOMMITTEE.ORG
MARK R. TRACHTENBERG
HAYNES AND BOONE LLP
1221 MCKINNEY STREET
SUITE 4000
HOUSTON, TX 77010
713-547-2528
MARK.TRACHTENBERG@HAYNESBOONE.CO
M

ELIZABETH B. WYDRA
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH STREET NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
ELIZABETH@THEUSCONSTITUTION.ORG

